                            CLOSEOUT FOR RI-91120046




det&rnined that the allegation of&igiarisrn had substance. OIG deferred the investigation to the
institution.

        Afier reviewing the institution's investigation report, OIG concluded that further
information was required and initiated its own investigation. OIG's investigation report and the
NSF Deputy Director's March 26, 1996, letter reflecting her decision constitute the closeout for
this case.
                                                                    L




cc:    Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                      Page I o f I
                       NATIONAL SCIENCE FOUNDATION
                           4201 WILSON BOULEVARD
                          ARLINGTON. VIRGINIA 22230



                                        March 26, 1996


  OFFICE OF THE
 DEPUTY DIRECTOR

CERTIFIED MAIL-RETURN RECEIPT REOUESTED
Dr. Robert J. Palrna


Re:   Notice of Misconduct in Science Determination and Proposed
      Debarment
Dear Dr. Palrna:
This letter and the attached investigative report serve as formal
notice that the National Science Foundation (NSF) proposes to
debar you from directly or indirectly obtaining the benefits of
Federal research grants for a period of two years. A person who
is debarred will be excluded during the period of debarment from
Federal financial and non-financial assistance and benefits under
non-procurement Federal programs and activities. See 45 CFR
S620.110, S620.200. In addition, you also will be prohibited
from receiving any Federal contracts or approved subcontracts
under the Federal Acquisition Regulations (FAR) at 48 CFR Subpart
9 . 4 for the period of this debarment. 45 CFR §620.110(c).
Debarment of an individual is effective throughout the executive
branch of the Federal Government.
Reasons for Debarment
NSF's decision to propose debarment is based upon a referral from
our Office of Inspector General (OIG). The Foundation's
administrative record indicates that YOU committed extensive



As documented in the attached Investigative Report, ninety




By submitting a proposal to NSF thst extensively copies the work
of others without attribution, you misrepresented as your own the
majority of the Proposal, including the propcsed scienciflc
research. This plagiarism undermines the integrity of your
Proposal, since originality is a critical factor in eval!lating a
grant proposal.




-
In defense of your actions, you claim that a former undergraduate
student prepared the plagiarized portions of the proposal and
that you were unaware of the plagiarism. As described in the
Investigative Report, these claims are not supported b y t h e
facts.

In addition, the administrative record also indicates that you
provided false information in your proposal. You inaccurately
listed the Vice President for Academic Affairs at
                 as your co-author on two manuscripts in the
biography porfion of the proposal, and named him as a proposal
participant in the budget section of the grant. You admit that
you prepared these sections of the proposal.
Under NSFfs regulations, "misconduct" is defined to include
ufalsification,,fabrication, plagiarism, or other serious
deviation from accepted practices in proposing, carrying out or
reporting results from activities funded by NSF." 45 CFR
§689.1(a). We find that your actions constitute plagiarism as
well as a serious deviation from accepted practices within the
scientific community. Accordingly, we conclude that you
committed misconduct in science.
Resulatorv Basis for Debarment
In deciding what response is appropriate when misconduct is
found, NSF must consider the seriousness of the misconduct;
whether it was deliberate or careless; whether it was an isolated
event or part of a pattern; and whether the misconduct affects
only certain funding requests or has implications for any
application for funding involving the subject of the misconduct
finding. 45 CFR §689.2(b). Severe m i s c ~ n d u cis
                                                    ~ a cause for
debarment because (i) it affects the integrity of NSF research or
education programs, see 45 CFR §620.305(b); 45 CFR §689.1(e), and
 (ii) it is a "cause of so serious or compelling a nature that it
affects the present responsibility of a person", 45 CFR
S620.305(d).
Debarment must be for a period commensurate with the seriousness
of the cause. 45 CFR §620.320(a). It should generally not
exceed three years, but where circumstances warrant, a longer
period of debarment may be imposed. The burden of proof is on
the government to establish facts which justify debarment by a
preponderance of the evidence. 45 CFR §689.2(d), §620.314(c).
According to the Investigative Report, you committed extensive
plagiarism, including the portions of the proposal describing the
proposed scientific research. This behavior was the result
either of recklessness or deliberate action, and constitutes
severe misconduct in science. Accordingly, we are proposing
debarment as an appropriate remedy, for a period of two years.
Procedures GoverninqProposed Debarment/Scientific Misconduct
Alleqations
Under our regulations, you have 30 days after receipt of this
notice to submit - - in person, in writing, or through a
representative - - information and argument in opposition to the
proposed debarment. 45 CFR §620.313(a). During this 30-day
period you may also review the attached Investigative Report and
submit comments or rebuttal. 45 CFR S689.8(c)(1), S689.1(e).
Comments submitted within the 30-day period will receive full
consideration and may lead to revision or withdrawal of the
Investigation Report or of the recommended disposition.
Any response should be addressed to Lawrence Rudolph, General
Counsel, National Science Foundation, 4201 WilsonBoulevard, Room
1265, Arlington, VA 22230. If you have any questions, please
contact Mr. Rudolph at (703) 306-1060. We are attaching a copy
of the Foundation's regulations on Non-Procurement Debarment and
Misconduct in Science and Engineering, and FAR Subpart 9.4.

                                   Sincerely,


                                   ~ n n kC. Petersen
                                   Deputy Director


Attachments (4)
Investigative Report
Nonprocurement Debarment Regulations
Misconduct in Science Regulations
FAR Regulations
        NSF OIG INVESTIGATION
                            REPORT

                     OIG Case Number M9 1120046




     This document is lent to you FOR OFFICIAL USE ONLY. It remains the
     property of the Ofice of Inspector General. It may not be reproduced. It
     may be disclosed outside NSF only by the Inspector General, pursuant to the
~1   Freedom of Information and Privacy Acts, 5 U. S.C. $5 552, 552a.
       IXEPORT OF INVESTIGATION INTO AN ALLEGATION OF
           MISCONDUCT IN SCIENCE AND ENGINEERING

                                                        SUMMARY
                                                   determined that Dr. Robert J. Palma (the subject),
                                                   , committed plagiarism in a grant proposal he
                                                  vestigations by MSU and OIG. OIG recommends
that NSF make a iindiig of misconduct in science, send the subject a letter of reprimand n o t i n g him
that NSF has made that £inding, and debar him fiom receiving government grants for three years.

                                                    BACKGROUND




                                                                                        award received b




        OIG compared the original author3-awad             with the subject's NSP proposal to
determine if text had been copied from the original author's award. With regard to the
allegation of verbatim plagiarism, OIG found that over 90 percent of the body of the subject's
proposal appeared to be copied fmm the original author's award. The subject did not provide




                                                                  -
a satisfactory explanation to our request for information about this matter. Therefore OIG's
inquiry daermioed that here was sufficient substance to the allegation to warrant a hll
investigation.




(see
          '&w e k of~ ocgotialioas with
       Tab A).
                                                    the institution. the   subject r e s i p c d m d m i v e d disability r u k m c n ~


          2      ~   origiaal
                      c       autbor's award w a ~e n t i t 1 4
        We contacted the Authorized 0rganizati.c~nalRepresentative designated on r e m h
proposals for the institution on June 9,       At his request, we deferred the investigation to
the institution in accordance with NSF re&lation (45 C.F.R. fi 689.4(d)(2)).

     TBE INSTJTUTION'S INVESIIGATLON OF THE ALLEGATION
       The institution's investigation found that the subject's proposal submitted to NSF

       "was a plagiarized submission, and that probable cause exists to conclude that [the
       subject] misrepmented to your agency that the plagiarism was the result of acts
       on the part of another person." (see Tab A)

        A letter h m the institution's p&ident to OIG dated 10 ~ e c e m b e ..r w s e Tab
                                                                                    .  e B)
indicated that the University's official finding was

       "that probable cause existed to conclude that [the subject] did in fact plagiarize
       the information that was incorporated into his grant application."

and that

       "[als a disposition of the matter, [the subject's] resignation as a tenured faculty
       member was requested, and he ultimately complied. [The subject] is no longer
       on the faculty of the University, nor is he in any way elated to the University,
       other than as a retired employee."



        OIG wmte to the subject summarizing the case, offering him an opportunity to respond
to the allegation and to the institution's investigation, and requesting additional information. As
a part of OIG's investigation, we attempted to verify statements made by the subject as well as
by some of the individuals implicated in this case by the subject.



       OIG has marked and cross-referenced 20 corresponding passages in the award and the
proposal. These are attached at Tabs C and D, respedively. The passages in the original
author's award that appear to have been copied are sequentially numbered and a corresponding
number has been placed next to the appropriate passages in the subject's proposal. We found that
80 percent of the subject's proposal contained copied material from all sections of the original
author's award including the abstract, introduction, actual proposed work, and references.

       Forty-three of the sixty references in the original author's award were repeated in the
subject's proposal in exactly the same sequence as in the original author's award. This group
of forty-three citations (#1 through #43) was identical or substantially similar to those in the
original author's bibliography, and citations to these rkferences appeared in the copied text.

        Whereas the most recent citation in the original author's award is from 1989, the
remaining eleven references (#44-#54) in the subject's proposal are from 1991. Of the eleven
1991 citations in the subject's proposal, only one, #48, is cited in the text of the proposal.
Unlike the other citations in the proposal text, it is referenced out of numerical order. The
inclusion of the eleven references appears to be a partial attempt to update the original author's
P W ~ .
       The original author's name-              was deleted from references 1 and 2 of the
subject's proposal (page 21:.see Tab D). They were incorrectly cited as:




      The cofiesponding citations as they appeami in the original author's award (page 29: see
Tab C) were:




         In the budget section of the proposal, the subject had included the name of the Vice
President for Academic Affairs (VPAA) at the institution as an unfunded minvestigator. The
VPAA told us (see Tab E)that he did not know that his name had been included in the subject's
proposal and that he did not do research in this area o

subject's "biography" included    in the proposal,
                                                       v
subject's "biography" was erroneous; they had not co-autl;ioSEd~~
                                                     and in  fact
                                                                     In addition, he said that the
                                                                  e two manuscripts listed in the
                                                                  they had never formally or
significantly cohborated on any I ~ ) r e h .



       The subject's responses to the allegation are included at Tab F. Initially, in April 1992
the subject explained to OIG that

       "[elvidently, some of my proposal was plagiarized from another-
       proposal. In all my 22 years of doing research and writing research proposals,
       I have never even considered using work from others without giving proper
       acknowledgement. Plagiarizing violates my religious beliefs. "



                                             Page 3
        The subject claimed that he had been deceived by a former undergraduate student. He
explained that he had wanted to branch out into a new area of-research,             specifically,
                             an area in which he was not well versed. He claimed that he was
approached by a former undergraduate student of his,                    (student "Aw). He said
that student "A" had a backgmund n-i                       and encouraged the subject to write a
proposal in this area of study. The subject claimed that student "A" was unemployed at the time
and volunteered to write the proposal for him after the subject reminded student "A" that
                  was not his field. The subject stated that

        "[w]hen I put the proposed research into NSF format and added the budget etc.
        [student "A"] became incensed because I didn't include any funds for him. I
        explained the grant was for undergmduate research and funding him would violate
        the purpose of the grant. Needless to say, I have neither seen nor heard from
        him after this argument. I do feel sorry for him as he has been suffering from
        a mental disease for > 8 years which seems to be refractory to medication."

        The subject claimed that his participation in the preparation of the proposal was minimal;
he indicated that he was urged by student "A" to "edit, rewrite as needed and submit it with [the
subject] as the P.I." The subject claimed that after he received the dmft of the proposal from
student "A" he sent a copy to a "friend" who was an expert '                           He said that
his "friend" reviewed the draft of the proposal, made some s          .     t    e    d the lack of
more recent references. The subjezt stated that he added the cover and budget pages, the
previous NSF support section, and the infomation following the body of the proposal which
included the "biography."

       OIG asked the subject who the "friendwwas who had allegedly reviewed the draft of his
proposal prior to its submission. The subject identified his "friend" as
(student "B").'

       When asked how the proposal had been plagiarized, the subject claimed that student "A"
had obtained a copy of the original author's award

         "from one of our ex-students in graduate-                           studies at [the original
        author's institution] (or one of [the original author's] other students). It is not
        difficult to obtain old research proposals piled up in labs or offices."

       m e original author informed us that, as a general practice, he provided copies of his
funded proposals to his graduate students. He told us that one of his former graduate students,


        3 ~ a r'  B't told OIG in Fehuary 1      W interviews that he thought he had received the subject's proposal
fiom NSF to review. OIG explained to student 'B' that NSF had no record of his having reviewed the subject's
proposal (see Tab G), nor is it conceivable that NSF sent a proposal to a graduate studat for peer review. In a
labr 4 April 1995 s h k m a ~ t ,d e n t 'B* explained that he had not reviewed the subject's NSF proposal, but that
he had reviewed a proposal preparad by the subject for a privatt foundation (see Tab J).
 who happened to be student "B" , had received a copy of the award in this manner. Student "B"
 had previously been an undergraduate student of the subject at the institution. The subject may
 have obtained a copy of the original author's award during one of student "B's" visits to the
 institution.'

           The subject concluded:

           "At 53 years of age, having had a productive teaching and research career, I had
           nothing to gain by cheating. There was no more pressure to publish or even do
           research anymore."
          . .
  Bxamrnatnw ofthe Subjed's Responses

         A) Sub_lms statements about Student "A." As a part of its investigation, the institution
                        9



  contacted student "A," who the subject alleged had written the proposal. Student "A," in a
  signed and sworn affidavit dated 22 October 1992 (see Tab H),stated that he

           "had absolutely nothing to do with [the subject's] grant proposal to NSF. My
           only experience is '                          1mnot-atall.
           It is totally out o f w r e s t . I have never had any mental
           problems or treatment in my life, nor have I ever received any medi&tion for
           such problems. The statements made in [the subject's] letter to NSF are totally
           false. "

            Student "A" also stated that after leaving his graduate institution he "went directly to
-here
   .--=   -
                    [he] bars] been a full-timeevr'           since for [three companies ] . . . ."

           Student "A's" testimony contradicted the following statements by the subject:




                  'Student 'B' told OIG that he could not recall if he had received a copy of the award (see Tab G).
  He attributed his memory loss initially to his having becn in an automobile aceideat. However, during student "B's"
  second interview, he indicated that his memory loss had not been the result of an automobile accident, but rather
  to his having b e a mugged and having his skull Fractured. OIG received a wpy of the police report that confirmed
  that studcat 'B' was assaulted rather severely in 1991. When he was asked how the subject wuld have obtained
  a copy of the award, studcat 'Be told OIG in his cariier intedews that he did not rtcall giving the subject a copy
  of the award, but he acknowledged that the subject could have obtained a wpy of the award from him.
           Student 'B' stated in his 4 April 1995 statement (see Tab J) that with respect to two visits he believed he
  had made to the institution to pnsent research relatad to the original author's award, 'it would have been impossible
  for [the subject] to have removed any additional information from E s ] briefcase.' He said that he was with the
  subject during the 'visit around the department. However, others may have had access to the materials.' OIG is
  puzzled by student 'B's' selfdescribed 'sketchy' memory that, on the one hand, provides limited recall concerning
  many evmta related to this case and, on the other hand, provides a clear recollection with respect to the subject's
  actions with the two visits student 'B' believed he made to the institution (set Tab .)J

                                                        Page 5
    1) that student "A" wrote the proposal. Student "A" denies knowing anything about the
pvsal;

           2) that student "Aawas knowledgeable in                        Student "A" denies that he
is anor-                   has any knowledge of that field;

           3) that student "A" had mental problems. Student "A" said that he did not have and
never had mental problems;

          4) - that student "A" had done graduate work at the original author's institution and at the
-(second                         institution) at                see Tab F). Student "A" stated that
  he was never a student at the original a u t h ! I n             a 9 December 1993 response to
  OIG's request for additional information following receipt of student "A's" statement, the subject
  indicated that he had been in error when he stated that student "A" had attended the original
  author's institution. He explained that student "A" visited and applied to the original author's
  institution, but was not accepted (Tab F);

         5) that student "A" had been terminated from the two institutions discussed in item four
above, and following his termination he had moved back with his family, where he was
unemployed at the time the proposal was written (Tab P). However, student "A" stated that he
had never attended the first institution and that he resigned voluntarily from the second
institution "for reasons of more money." Fufier, he stated that he did not go back home, but
rather he went directly                     where he was employed.

       OIG has verified that student 'A' was employed by a company located
His employment, beginning on February 26, 1991, and ending on November 1, 1991, coincides
with the time period over which the proposal was developed. The subject's proposal was signed
                                             on Oaober 1 8 , (see Tab D) and received by
NSF on                                       statement that student "A" was unemployed at the
time the proposal was written was false.
                   .   '
           B) S u ? A m s mments about the Pnmosal,
           The subject insists that

           "[allthough [student "A"] has always had 'behavioral problems', he is quite
           brilliant and.in my opinion, capable of writing a complex proposal such as 'this.
           I am sorry to say I was duped."

          The evidence indicates otherwise. To have been "duped" the subject, an experienced
  researcher, would have had to accept without alteration a sophisticated proposal in
                   from student "A" who only had an undergraduate de& d-                   who,
-subject,                  was unemployed. The subject alleged that student "A" had been doing
  graduate work in this particular area of study, which student "A" denies, and that student "A"
had been terminated from the university where he was a student, which student "A" also denies.
OIG finds the subject's explanation for how he was "duped" to be implausible.

        By the subject's own admission, he completed the sections of the proposal from page 24
to the end (see Tab F), including the budget and "biography" sections. As a part of the budget
section, the subject included the VPAA as an unfunded co-investigator (pages 34 through 37,
and pages 39 and 40,Tab D). The VPAA, who had not signed the proposal, said that he knew
nothing about his inclusion in the proposal. The information the subject conveyed about the
VPAA as an unfunded co-investigator was false.

       As a part of the "biography" section, the subject had included two manuscripts as co-
authored with the VPAA (see Tabs D and E). The VPAA stated that he had never co-authored
these manuscripts with the subject. The citations indicating the subject's collaboration with the
VPAA were false.



        The subject's response to this investigation report and other related information are
included in Tab J. In his April 4, 1995, response the subject reiterated that he was "duped" by
student "A" and that the institution's investigation intohis alleged plagiarism was "no more than
a 'cover up' for their incompetent handling of all grant proposals now and during the past 24
years." He claimed that the VPAA lied when he stated in his June 1992 letter to OIG (Tab E)
that he "was not aware until now that [he] was named by [the subject] as an unfunded co-
investigator." The subject provided a copy of a memorandum dated November 11,-(Tab
J), that he claimed he sent to the VPAA in which he requested a copy of the VPAA's resume
and a list of his publications for their inclusion in his NSP proposal. He contended that the
memomdum showed that the VPAA "realized his role in the proposed research." OIG
contacted the VPAA who told us that he could not remember receiving this memorandum and
could frnd no copy of it in his files?

        In his April 4 response, the subject explained that both he and student "A"

        "suffefled] from a similar handicap. I have been in treatment for manic-
        depression for over 18 years and there are periods when my medications fail. "

Further, the subjed said

        "I wish to acknowledge some guilt for 'errors of omission.' Did I act in a careful
        and exacting enough manner in all my actions durin that time? Perhaps I was
        a bit lazy then. However, Summer and Fall %ere               times in which my


          he subject Btated that the VPAA pffssured student 'A' to Lie about his participation with the proposal.
Specifically, in this latest rcsponsc, the subject added that the VPAA probably tkmatmed to disclose student "A's"
mental condition unless he lied.
            manic-depression disease made it diff~cultfor me to carry on normally. I was
            hospitalized twice during that time for treatment of my disease."

          The subject submitted evidence of his physical and mental health problems that existed
    in 1991 and persist today (Tab J). We believe that these problems do not alter the fact that he
    committed misconduct in science and that he was responsible then and now for his actions.

            In the subject's response to the investigation report, he said that he

            "obtained the proposal from [student "A"] during the end of his Fall semester at
                              m e subject] wmvleted [emphasis added] the proposal during
            Nov., Dec. 1990 and Jan. 1991."

    This statement contmdids his 0rigina.l April 7, 1992, response to OIG at which time he stated
    that stu&nt "A" moved back with his family "n]ast Fall" at which time he "asked me if he could
    do some analytical work for me while he was here. He encouraged me to write a grant proposal
    . . . ."(Tab F) This implies that the proposal was written in late summer or early fall 1991,
    a time when we know student "A" was otherwise employed. Thus, the subject changed his
    statement of when his proposal was completed from the fall of 1991, just prior to its submission,
    to nine months before it was signed and submitted to NSF.~ However, if the proposal was
    completed in January 1991, it is very M c u l t to explain how or when the addition of the more
    recent 1991 references to the proposal occurred. Some of the 1991 references were not
    published until May and June of 1991. These references, plus the one 1991 citation in the text
    of the proposal, must have been added some time in late summer or early fall of 1991. This
    strongly suggests that the proposal was prepared and completed in the fall of 1991 as the subject
    origblly stated.

            Finally,the subject stated in his April 4 response that student "B"

            "reviewed another grant proposal of mi& on                    (Spring 1991)
            . . . So you see, he did not I.to you abwtopmpod.                       He
            simply forgot which grant proposal you referred to. He will be sending you
            p m f of his role on the other grant proposal."

    Student "B" provided no evidence that he had reviewed a second proposal. Further, the
    subject's statement contradicts his original account to OIG (see Tab F) in which he stated that




               he changed earlier completion date by the subject for the proposal agrees with the November 1 1,
    memorandum the subject allegedly sent to the VPAA asking for a copy of his resume and a List of his articles for
    inclusion in the proposal, a memorandum the VPAA said he never received. The change also allows the subject
    to say that student 'A' was unemployed when the proposal was completed. OIG has not attempted to verify if
    student 'A' was employed prior to February 1991.
I
student "B" had reviewed his NSF proposal and had suggested that the references in the proposal
be updated?
    -.      Student I n f m

        In the subject's April 4 response, he questioned how OIG knew that student "A" was not
in a position
     -        to obtain a &py of the origi& author's award. He said that student "A" visited
                            fok he appli& to graduate school. The subject said that he had two
former students that would "testify" to student 'A's" presence           4               at that
time. The subject said that "[student "A"] could &we] obtained this proposal
                                                                    - -       from them [either
of the two students]." OIG interviewed both students. The students provided no information
that suggested that student "A" had access to, or received a copy of, the original author's
award.'

OIG's Conclusicm Regarding Miscoaduct in Science

        For NSP to make a finding of misconduct, a preponderance of the evidence must show
that the subject committed the act (plagiarism) with a culpable state of mind. The subject claims
that he used what he believed to be student "A's" work as a research proposal for NSF. Student
"A" denies any knowledge of the award or the subject's proposal. OIG found that the
preponderance of the evidence shows that student "A" was in no position to obtain a copy of the
original author's award and therefore was not the source of the proposal as alleged by the
subject.

        OIG was told by the original author that student "B" had received a copy of his award.
Student "Bn admits that it was possible that the subject obtained a copy of the original author's
award from him (see Tab G), although student "B's" memory of events surrounding this entire
case is questionable (see Tab J). We conclude that the subject probably obtained the original
author's award from student "B. "

        The subject admits that he prepared the cover page and the budget and "biography"
sections of the NSF proposal. The subject provided false and misleading information when he
Listed the VPAA as his co-author on two manuscripts in his "biography" section and when he
included the VPAA as a proposal participant in the budget section, neither of which the VPAA
knew anything about. The subject admits that he signed and submitted, as the sole PI, a


         'see   footnote #3.

         'OIG interviewed the two students by telephone (April 18, April 20, and May 9 , 1995; Tab J). Student
#1 was student 'B,' who told us that student 'A's' name sounded familiar,but that he did not know him. He could
provide no information with respect to studcat *A'sa preseucc at                                 t #2 knew student
          well. He said that student 'A' had visited his (studen
sib                                                                                              he-
            's located. but that he doubted that student 'Am had ever visited the campus. He explained that student
"A' knew who student 'B' was, but that they were not friends.
proposal that represented research in an area of science about which he claims he was not
knowledgeable. However, the subject claims not to be responsible for the copied text or the
additional updated refemces. The preponderance of the evidence shows that the subject himself
plagiarized 90 percent of the text and 43 of the references from the original author's award into
his NSF proposal without offset or attribution and that he provided false and misleading
infomation in the budget, "biography," and refe~ncesections of the proposal.

       I .evaluating the subject's state of mind, we consider a l l the relevant circumstances. In
this case, the subject admits preparing the proposal for submission to NSP including the budget
and "biography" sections, parts that contained false information concerning his collaborative
relationship with another scientist. We determined that many of the subject's statements made
to us during our investigation of the case were false. Thus, his statement that he was not
responsible for the plagiarized portions of the proposal is not credible, in ligbt of the information
obtained from students "A" and "B." The subject acknowledged making some "errors of
omission' during the summer and fall o m a t which time he said that his disease made it
difficult for him to function nowally. The evidence provided by the subject's doctor makes it
clear that these health problems persist today. Although, as the subject attested,these problems
may have made it "difiicult for @         tohcarry
                                               ] on normally" in 1990 and 1991, they do not
excuse or justify adions on his jmt that we conclude went well beyond "errors of omission."
His condition may affect his personal responsibiity for some of his actions but, in any case, we
believe that he is lacking in present responsibiity and, therefore, is not a suitable recipient of
federal grant funds. We conclude tbat the subject plagiarized the material and that his
manipulations and deletions of the copied text and references to better suit his own purposes
shows that he knowingly plagiarized the original author's award, prepared it for submission to
NSP, signed it, and submitted it as the sole' PI.

       Therefore, OIG concluded that a preponderance of the evidence supports the finding that
the subject knowingly plagiarized work of another. OIG concludes that the subject committed
misconduct in science, 45 CFR 8 689.1(a).



        Section 689.2(b) of NSF's misconduct in science and engineering regulation states that
in deciding on appropriate actions when miscondud is found, NSF officials should consider the
seriousness of the misconduct, the intent with which the subject acted, any evidence of a pattern,
and finally, its relevance to other funding requests or awards involving the institution or the
individual. In this case the plagiarism involved copying 90 percent of the proposal, which is
very serious. We believe the evidence supports a finding that the subject knowingly plagiarized
material, and signed and submitted it as his own; that he knowingly included misleading
information when he removed the original author's name from two of the citations; and that he
knowingly misrnresented information in the budget and "biography" sections of his proposal.
 Therefore, we believe that this case warrants a Group I and a Group IlI action (see
5 689.2(a)(3)). We recommend that NSF send a letter of reprimand to the subject, a Group I
action, stating that NSF has found that he has committed misconduct in science and that NSF

                                              Page 10
debar the subject from receiving government grants, a Group III action, for a period of three
Y-.




                                           Page 11
